GR-40-98-001
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
Office of Community Oriented Policing Services
Grants to the Union City, Georgia, Police Department
Grant Numbers 95-CF-WX-0370 and 96-CM-WX-0109
GR-40-98-001
November 1997
 

AUDIT RESULTS
 
The Office of the Inspector General, Audit Division, has completed an audit of grants
awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing
Services (COPS), to the Union City, Georgia, Police Department. Union City received a
$63,045 grant (95-CF-WX-0370) to hire or rehire one additional sworn officer under the
Funding Accelerated for Smaller Towns (FAST) program, a $327,864 supplement to the FAST
grant to hire or rehire five additional sworn officers under the Universal Hiring Program
(UHP), and an $18,000 grant (96-CM-WX-0109) to redeploy one officer full-time equivalent
(FTE) under the Making Officer Redeployment Effective (MORE) program. The purpose of the
additional officers is to enhance community policing efforts.
Generally, Union City performed the community policing efforts described in its
applications. However, Union City:


- Was reimbursed for $6,882 in salary and fringe benefits which were paid after the end
    of the MORE grant, and are thus unallowable. Additionally, Union City did not track the
    hours which officers were redeployed under the MORE grant. As a result, we could not
    determine that one officer FTE was redeployed; consequently, the $18,000 grant is
    unsupported.
- Had not submitted the Initial Report (due September 29, 1995), the Annual Department
    Report, or the Officer Progress Report (both due June 20, 1997) for the FAST grant.
    Additionally, Union City had not submitted the Initial Report for the MORE grant (due
    October 31, 1996). 
- Did not submit the Financial Status Reports (FSR) timely. Eight FSRs were all
    submitted on the same day. Additionally, cumulative total outlays and cumulative Federal
    share were reported inaccurately on the FSRs for both grants.
- Had not hired any of the five officers authorized under the UHP grant, even though 10
    months had passed since the grant was awarded.


 
#####